Tan |

Q@OCKLE

2311 Douglas Street a ] 7 E-Mail Address:
Omaha, Nebraska 68102-1214 Le 8 B t Ae f 3 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-670
ARNOLD FLECK,
PETITIONER,
Vv.
JOE WETCH, ET AL.,
RESPONDENTS.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 19th day of December, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF THE LIBERTY JUSTICE CENTER AND THE
MACKINAC CENTER FOR PUBLIC POLICY AS AMICUS CURIAE IN SUPPORT OF PETITIONER in the above
entitled case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the
following:

SEE ATTACHED

To be filed for:
Daniel R. Suhr
Counsel of Record
Jeffrey M. Schwab
Brian K. Kelsey
LIBERTY JUSTICE CENTER
190 LaSalle St., Ste. 1500
Chicago, IL 60603
(312) 263-7668
dsuhr@libertyjusticecenter.org

Subscribed and sworn to before me this 19th day of December, 2019.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary ‘i ‘
State of Nebraska ge a LM te Qudraw- &. Chile
My Commission Expires Nov 24, 2020 e

Notary Public Affiant 39183

 

 
 

 

Attorneys for Petitioner

Timothy Mason Sandefur
Counsel of Record

Party name: Arnold Fleck

Goldwater Institute 602-462-5000
500 E. Coronado Road
Phoenix, AZ 85004

tsandefur@goldwaterinstitute.org

 

Attorneys for Respondents

Sarah Elaine Harrington
Counsel of Record

Goldstein & Russell, P.C. 202-362-0636
7475 Wisconsin Avenue

Suite 850

Bethesda, MD 20814

sharrington@goldsteinrussell.com

Party name: Joe Wetch, Aubrey Fiebelkorn-Zuger, and Tony Weiler

 

 
